                                                      NATIONAL SCIENCE FOUNDATION
                                                       OFFICE OF INSPECTOR GENERAL
                                                         OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM

11   Case Number: A04050026
                                                                                       11           Page 1 of 1



                   We identified two proposals1submitted from a community college2with text copied verbatim
           from several sources. The proposals had a single principal investigator PI)^ in common, one having
           a single CO- PI^ and the other two C O - ~ 1 s .The ~ community college did not have a research
           misconduct policy and the PI was the head of the grants office at the institution. Therefore we did
           not refer the investigation to the institution. Our investigation showed that the PI was the responsible
           author for the text copied and the lack of appropriate citation. Based on our investigation, we
           presented NSF with the attached investigation report and recommended that NSF: send a letter of
           reprimand with a finding of research misconduct to the PI; require the PI to certify completion of an
           ethics in scientific research course prior to submitting any future proposals to NSF; and require the
           PI to certify that proposals he submits to NSF as PI, Co-PI, or otherwise as an author do not contain
           plagiarized material for one year. In the attached letter from the NSF Deputy Director, NSF has
           made a finding of research misconduct, required the PI to certifi completion of a training course of
           ethics in scientific research, and required the PI to certify that any proposal he submits as PI or Co-PI
           does not contain plagiarized material until December 15,2006.




 NSF OIG Form 2 ( 1 1102)
                                 NATIONALSCIENCE FOUNDATION
                                    4201 WILSON BOULEVARD
                                   ARLINGTON, VIRGINIA 22230




    OFFICE OF THE
   DEPUTY DIRECTOR                                                    JAN 1 3 2006
                                                                              '




               MATI, --RETIJRN RECEIPT REQLJESTl3.D




       Re: Notice ofMisconduci in Sciell ce Dererln illation

  ear-
                             -
       On Februarv. l., 2003.. vou submitted a uro~osalto the National Science Foundation
                                             A   2



("NSF") entitled                                                                      On
October 15,2003, you submitted another proposal to NSF ed)l-(tenit
0 As documented in the attached Investigative Report prepared by NSF's Office of
Inspector General ("OIG"), both of these proposals contained plagiarized text.




        Under 1VSF7sregulations, "research misconduct" is defined as "fabrication, falsification,
or plagiarism in proposing or performing research funded by NSF .. ." 45 CFR 5 689.1 (a). NSF
defines "plagiarism" as "the appropriation of another person's ideas, processes, results or words
without giving appropriate credit." 45 CFR 5 689.1(a)(3). A finding of research misconduct
requires that:

        (I)    There be a significant departure from accepted practices ofthe relevant research
               community; and
        (2)    The research misconduct be committed intentionally, or knowingly, or recklessly;
               and
        (3)    The allegation be proven by a preponderance of evidence.

45 CFR 3 689.2(c).
                  In the two proposals you submitted to NSF, you misappropriated text from source
          documents into the proposals without providing proper attribution for such text. By submitting
          proposals to NSF that copy the ideas or words of another without adequate attribution, as
----   --deferibedin#x-QG hwstigative-Reportiyou lnisrepresentedsomeone-4x5-work as your-own. -                   - --
          Your conduct unquestionably constitutes plagiarism. I therefore conclude that your actions meet
          the definition of "research misconduct" set forth in NSF's regulations.

                 Pursuant to NSF regulations, the Foundation must also determine whether to make a
         finding of misconduct based on a preponderance of the evidence. 45 CFR $ 689.2(c). After
          reviewing the Investigative Report, NSF has determined that, based on a preponderance of the
          evidence, your plagiarism constituted a significant departure from accepted practices of the
          relevant research community. I am, therefore, issuing a finding of research misconduct against
          you.

                   NSF's regulations establish three categories of actions (Group I, 11, and In) that can be
          taken in response to a finding of misconduct. 45 CFR $689.3(a). Group I actions include issuing
          a letter of reprimand; conditioning awards on prior approval ofparticular activities from NSF;
          requiring that an institution or individual obtain special prior approval of particular activities
          from NSF; and requiring that an institutional representative certify as to the accuracy of reports
          or certifications of compliance with particular requirements. 45 CFR $689.3(a)(l). Group II
          actions include award suspension or restrictions on designated activities or expenditures;
          requiring special reviews of requests for funding; and requiring correction to the research record.
          45 CFR $689.3(a)(2). Group 111actions include suspension or termination of awards;
          prohibitions on participation as NSF reviewers, advisors or consultants; and debarment or
          suspension from participation in NSF programs. 45 CFR 9 689.3(a)(3).

                  In determining the severity of the sanction to impose for research misconduct, I have
          considered the seriousness of the misconduct; our determination that it was committed
          knowingly; the fact that your misconduct had no impact on the research record; the fact that your
          misconduct was an isolated incident as opposed to a part of a pattern; your willingness to accept
          responsibility for your actions; and the contrition that you demonstrated during the course of the
          investigative process. I have also considered other relevant circumstances. 45 CFR $ 689.3 (b).

                   I find your plagiarism to be serious because, as the Director of Grants at your institution,
          you are the individual responsible for submitting grant proposals to NSF and other Federal
          entities. There are, however, several mitigating factors that must be considered. First, you
          provided citations for much of the copied text at issue, but simply failed to distinguish your text
          properly from the copied text. Second, you did not author the proposals at issue for personal
          gain; rather, you did so as a favor to colleagues who did not have sufficient time to write them
          themselves. In addition, you cooperated fully with the OIG investigation, and accepted full
          responsibility for any plagiarism that occurred.
                                        I, therefore, take the following actions:
                                        From the date of this letter until December 15, 2006, you must certify that any proposal
. ..   ..   .,   ,   -    ,. .. .. .,
                                        you submit...as a.....PI ..or. co-PI .does
                                                  ,       .   .. .. ..        .
                                                                                   not contain  plagiarized material. .. -..-
                                                                                          . ... . - . - -. .
                                                                                                      -..                          ..-.   . ..   . ..


                                        You are required to complete a training course on ethics in scientific research before
                                        submitting any additional proposals to NSF. You must certify in writing to the OIG that
                                        such training has been completed.



                             Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal
                     of this decision, in writing, to the Director of the Foundation. 45 CFR $689.10(a). Any appeal
                     should be addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
                     Arlington, Virginia 22230. For your information we are attaching a copy of the applicable
                     regulations. If you have any questions about the foregoing, please call                  Assistant
                     General Counsel, at (703) 292-8060.


                                                                                    Sincerely,



                                                                                    Kathie L. Olsen
                                                                                    Deputy Director


                         Enclosures
                         - Lnvestigative Report
                         - 45 C.F.R. 689
        National Science Foundation
        Office of Inspector General




                        Confidential
                    investigation Keport
                  Case Number A04050026




CONFIDENTIAL

NSF OIG FORM228 (1103)
                                                    Summary

            The Office of Inspector General (OIG) has concluded that the subject1 committed
    plagiarism in two proposals submitted to NSF. The subject is the PI on both proposals
    and Director of Grants at the community college2 that submitted the proposals. Because
    the subject's institution does not have a research misconduct policy, OIG did not refer the
    investigation to the institution and conducted its own investigation. OIG concludes that
    the preponderance of evidence supports a finding of research misconduct and
    recommends that NSF:

               send a letter of reprimand to the subject informing him that NSF has made a
               finding of research misconduct;

               require the subject to certify the completion of a course on ethics in scientific
               research before submitting any proposals to NSF on which he is a principal
               investigator (PI), co-principal investigator (Co-PI), or otherwise contributes as an
               author; and

               require the subject to certify that proposals he submits as PI, Co-PI, or otherwise
               contributes as an author, to NSF do not contain plagiarized material for 1 year
               commencing with the date of NSF's finding of research misconduct.



                                                 OIG's Inquirv

            OIG received an allegation of plagiarism regarding a proposal3(Proposal 1) the
    subject submitted to NSF. The proposal identified the subject as both the PI and the
    authorized organization representative (AOR) with one CO- PI^ listed (Co-PI 1). OIG's
    analysis of Proposal 1 led to the identification of several possible source documents5for
    the allegedly copied material. Analysis of the subject's other proposals to NSF revealed
    an earlier proposal6 (Proposal 2) containing apparently copied text.7 The sub'ect was also
                                                                                        d
    the PI and AOR on Proposal 2 along with two Co-PIS (Co-PI 2' and Co-PI 3 ), neither of
    whom appeared on Proposal 1. Although some of the potential source d o c ~ m e n t s ' ~
    identified by OIG were included as references within the proposal, blocks of text




-   45
         Tabs 4-7, Source Documents A through D identified for Proposal 1.
    6
         See Tab 2,

         Tabs 8-12. Source Documents E through K identified for Pro~osal2.

    1u
         Tabs 4-12. Source documents identified by OIG for the allegedly copied text.
appeared to have been copied verbatim without quotation marks, indentation, or other
means of distinguishing the copied text from the subject's own text. In those passages
with citations, the citations did not clearly lead the reader to the source material. All told,
the two proposals contained approximately four pages of copied text.

        OIG wrote to the subject'' and each of three Co-PIS individually12to inquire
about the apparently copied text and received responses from each indi~idual.'~     All of
the responses, including the subject's, attributed authorship of the questioned sections of
the proposals to the subject. The subject explained the instances of questioned text in
various ways: 1) he provided the citation but failed to use quotation marks or
indentation, 2) the citation was inadvertently omitted during text revision, 3) his
paraphrasing was imperfect, and 4) there was prior authorization by the author of one
source to use the material without attribution through an intellectual property licensing
agreement.I4 As part of the inquiry, Co-PI 1 provided a copy of a portion of a licensing
agreement to support the prior authorization explanation; however, OIG' s'
understanding of the excerpt of the agreement is that the .intellectualproperty rights
licensed did not include a waiver of acknowledgement as the source of the original
material. The subject and Co-PI 1 both wrote that the allegations, with respect to
Proposal 1, were a case of poor citation and "cut and paste errors" rather than
               They also indicated that the subject wrote Proposal 1 using information that
Co-PI 1 supplied to him. The subject also pointed out that some of the material in
Proposal 1 came froin a                                       article, which must have
copied the sources identified by OIG.'~

       Co-PI 2 and Co-PI 3 both provided brief responses indicating that the subject
wrote Proposal 2 using information they provided to him.'' Their responses were
consistent with the subject's regarding authorship and a lack of intent to deceive.lg

        During the review of the proposals, OIG also noted that although the subject was
the PI, he had not submitted biographical information as required for senior personnel by
Section II.C.2.f of the NSF Grant Proposal Guide (GPG). At OIG's request, the subject
provided a resume, which indicated that he is the Director of the Grants at the institution
as well as a professional grant writer." The subject stated that he provided grant writing


    Tab 1.
12
    OIG's inquiry letters to each of the Co-PIS are essentially identical to the letter sent to the subject (Tab 1)
except that the questions were restricted to the specific proposal on which the Co-PI was named.
l 3 Initially, all four responded jointly in a letter signed only by the subject (Tab 13, Joint Response).
Because that letter bore only the signature of the subject, OIG contacted each of the Co-Pls requesting
individual responses to c o n f i that they had indeed been party to the joint response. OIG ultimately
received individual responses from each of the Co-PIS. See Tabs 15-18.
l4 Tab 13, pages 2-3.
l5 Tab 16, page 3.
l6 Tab 13, page 3; Tab 15, page 2; and Tab 16, page 1.
l7 Tab 13, page 3.
l8 Tab 17, page 1; and Tab 18, page 1.
l9 Tab 17, page 1; and Tab 18, page 1.
20 Tab 13, page 4-5.
services for the faculty because they "do not have sufficient time to spend on physically
submitting the proposal . . . ."2' The subject told OIG that he had difficulty uploading
proposals into FastLane for the faculty.22 He wrote that he "raised the issue with the
FastLane people about four or five years ago, and, on their recommendation, [he] also
became the PI on all grants submitted, but in name only . . . .,923

        Because the responses of the subject and his three co-PIS did not adequately
explain the extensive use of copied text, OIG determined the need for a detailed
investigation. The subject appeared to be the sole author for the text in question and its
final preparation for submission; therefore, OIG did not include any of the three Co-PIS
as subjects of the detailed investigation.

                                        OIG's Investigation

        The subject's institution does not have a research misconduct policy; therefore
OIG did not refer the investigation to the institution. Consequently, OIG conducted the
investigation. In addition to the documentary evidence collected during the inquiry, the
investigation also included an interview with the subject.24

                                    Interview with the subiect2'

       During the interview, OIG learned the subject is the only employee in the Grants
Office at the i n ~ t i t u t i o nand
                                   , ~ ~is the only institution employee who submits proposals.27
He works exclusively with grants from Federal agencies2' and provided OIG with a list of
proposals submitted to Federal agencies over the previous three years.29 He came out of
retirement to take this position and also writes grants for and consults with an
                                                                                 R
organization that assists autistic ~hildren.~'He also assists the institution's resident with
speech writing, strategic planning, and responses to congressional inquires.

         The subject said that there was no excuse for what happened and that he did not
know how it happened.32 He took full responsibility for the failure to provide appropriate
citations to source documents noting the pressure of impending deadlines for
s u b m i ~ s i o n .OIG
                      ~ ~ asked about his definition of plagiarism to which he responded that


21
   Tab 13, page 2.
zz Tab 13, page 2. See also Tab 22, pages 1-2.
21 Tab 13, page 2.
24 Tab 22, Summary of the subject's interview with OIG staff.
2S Tab 22.
26 Tab 22, page 1.
27
   Tab 22, page 2.
28
   Tab 22, page 1.
29 Tab 26.
30 Tab 22, page 1.
3' Tab 22, page 1.
32 Tab 22, page 2.
33 Tab 22, page 2.
CONFIDEN11AL                                                                                           CONFIDENIlAL



he saw it as taking other peoples' research and using it as his own, without attribution. 34
The subject asked that NSF take any actions against him personally and not the
institution.35


                                  The Subject's Newsgroup Postings

        OIG identified several postings, by the subject, to a discussion thread between
May 2000 and May 2001 on                           . 36 The postings contained the subject's
name as the source of the posting with his current email address at the institution. OIG
found that the subject provided formal citations to source material and quoted text offset
from the subject's original text despite the informal nature of po stings to a discussion
       37
thread. OIG also found statements in which the subject encouraged another grant writer
to seek periodic refresher training, noting his own need to do so "to eliminate bad habits I
tend to get into and unnecessary shortcuts I tend to take,,;38 noted his preference for
working on grants up until the last minute;39 and reminded someone to "paraphrase ...
giving credit of course.,,40


                                        Analysis o(proposal text

        We address the questioned passages in summary form organized by issue, using
the cross-referencing scheme ofletters used in the initial inquiry letter to the subject to
identifY sections of source text. We note that none ofthe passages contain technically
constrained language limiting the expression of the content to the particular words used.

        Text not cited. The subject did not include citations for passages F, G, H, J and
K, in Proposal 1. The subject copied passage F, approximately two lines, from a
Japanese professional association webpage,41 omitting one phrase from the source
document. The source document for passages G, H, and J4 is a website attributed to a
                                                      43
Federally Funded Research and Development Center. Passages G and J were lists of
information modified to change verb tense with accompanying introductory material.
Passage H was strictly textual material with de minimis alteration from the original text.


34 Tab 22, page 2. 

3S Tab 22, page 3. 

36 Tab 25. 

37 Tab 25. postings dated                 giving a full citation to a book edited by                      

              and                  providing quotation marks for a large block of text quoted from              

and                  distinguishing the text from
38 Tab 25, posting dated                       

39 Tab 25, posting dated                         

40 Tab 25, posting dated                      

41 Tab 9, Source F. 

42 Tab 10, Source G, H, and J. 

43                                                 funded by the                           and operated by 

                                The                                 whose site was copied into Proposal 1, is 

located at


                                                        4
         The subject stated that the source of the text for passages F, G, H, and J was a
                                                   article44and that the article must have
copied from the sources OIG identified.45 He also stated that the citations must have
been omitted when he was rearranging the text of the proposal. The inadvertent omission
of the citations during the editing process was plausible given that the subject included
the article in the list of references at the end of the proposal. The proposal contained no
citations to that article in the proposal text. The subject did not have his original copy of
the            article but provided a copy of the article that he found online prior to OIG's
interview.46 OIG also obtained a copy via Lexis-Nexis and found none of the copied text
in the article.47 OIG could not rule out that the copied text appeared in a sidebar to the
article. However, the ultimate source of the text appeared to be the sources OIG
identified. Whether the subject copied directly from the sources OIG identified or from a
source that copied and apparently plagiarized those sources, the subject did copy the
material from a source and failed to provide proper attribution.

        Passage K was a list of competencies that the institution's faculty would develop
as part of the proposed           This list was copied from the training materials of the
vendor4' who would provide the training course. The vendor has an established certified
training program at the subject's institution and Co-PI 1 manages that program.50 As part
of that arrangement, the vender and the institution have a licensing agreement, of which
Co-PI 1 provided only a part to OIG despite requests for a complete copy. The subject
and Co-PI 1 put forward the excerpt of the licensing agreement as evidence of the
vendor's permission to use the copied text." However, OIG interpreted the evidence
provided as giving the institution permission to copy the course materials for course
use.52 OIG noted that in a preceding section of the agreement,53the vendor retained
rights for product identification, strongly suggesting that the vendor would not give
permission for its materials to be used uncited. The subject made efforts to obtain
permission from the vendor to use the text after the investigation began.54 The subject
reported the vendor's response to OIG in an email that confirmed OIG's interpretation of
the agreement.55 OIG therefore concluded that the subject did not have permission to use
the copied text in passage K.

       For the reasons stated above, OIG concluded that the subject copied the source
material into Proposal 1 without giving proper credit.

44
   Tab 2 1,
45 Tab 13, page 3.
46 Tab 22, page 2.
47 ~ a 21.
        b
48 Tab 12, Source K.
49
50
   Tab 15, page 1.
51
   Tab 16, page 3.
5Z Tab 16, page 3, Section 8.C.
53 Tab 16, page 3, Section 6.C.
54
   Tab 22, page 2-3.
SS Tab 24.
        Text copied but not distinguished. This category includes two passages (A and
D) identified in Proposal 2 as well as two passages fiom Proposal 1 (E and I). All four of
the passages appeared in the subject's description of the need for the project.

        Passage A is fourteen lines of proposal text immediately following the heading
"Need for the              Almost all of the fourteen lines of this passage are copied
verbatim fiom the text found in the
                                                                          ."~~
                                                                            The subject
appears to have made one minor edit to connect the fourth sentence to the proposed work
and the penultimate sentence to add "chemists" to the list of professions utilizing
mathematics. Although the subject included a citation, it does not reasonably lead the
reader to the source document nor is the copied text distinguished in any manner fi-om the
subject's original text. Furthermore, passage A is the introductory paragraph of this
section of the proposal containing only three lines of the subject's original text at the end
of the passage. OIG determined this to be the use of another's words without appropriate
credit.

        Also under the heading of "Need for the Project," Passage D was approximately
three lines of copied text taken from a                                            58 The
subject copied the first sentence of this two-sentence passage verbatim fiom the white
paper. The subject rearranged the phrases of the source material to create the second
sentence. The subject provided a citation only after the second sentence but did not
provide a corresponding entry in the references section of the proposal. Thus, the reader
has no means of finding the source document. OIG determined this to be a use of
another's words without appropriate credit.

        Passage E was a ~ o x i m a t e l ytwo lines of text substantially similar to text in a
trade association report. The subject provided a citation to the trade association report.
This section arguably suggests to the reader that the information comes from the cited
source because of the introductory clause "One estimate was . . . ."60 However, the
clauses copied appeared in the same order as in the source document and the word "they"
was retained suggesting cut-and-paste copying instead of paraphrasing.61 Although of
minor consequence when considered in isolation, passage E appeared consistent with the
pattern of copying in both proposals. As such, OIG determined this to be a use of
another's words without appropriate credit.

        Passage I consisted of approximately three lines of copied text.62 As in Passage
E, the subject copied one sentence verbatim and made de minimis deletions to the other

56 Tab   4.
" Tab 4, pages   1-2.
'' Tab 7.
59 Tab 8.
6D Tab 8, project description, page 1.
6' Tab 8, project description, page 1.
62 Tab 11, Source I.
keeping the clauses in the same order. The subject did cite this passage to the correct
source but did not use any means to distinguish the copied text from his original text. As
with passage E, Passage I appeared consistent with the pattern of copying exhibited in the
two proposals. Therefore, OIG found this to be a use of another's words without giving
appropriate credit.

        Incorrect Citation. The subject provided citations for passages B and C, but
those citations did not accurately reflect the origin of the material copied. Furthermore,
the subject did not distinguish the text from his own.

        The subject copied passage B from an article on an educational software
development company's ~ e b s i t e The
                                    . ~ ~article described a study funded by the
Department of Education. The subject copied four lines of text verbatim and cited the
Department of Education rather than the article describing the study.64 Thus, OIG
concluded that the subject copied the text without proper credit for the source of the text
in passage B.

        The subject co ied passage C fiom a website reviewing and marketing the books
of a particular author!   The copied text describes one of the author's books. The subject
cited to the book itself as the source of the material without quotation marks when the
source text was actually a review of the book.66 While the text may paraphrase the
content of the book, someone other than the subject and presumably other than the author
of the book authored the text. The subject also provided a citation to a second source67in
Proposal 2 for part of the text that OIG identified as copied from the website. Thus, the
subject did not provide proper credit for the source of the text in passage C.


                                              The Act

        The subject admitted that he copied the four pages of text into the NSF proposals
in both his written statement^^^ and his interview with OIG staff.69 The subject correctly
pointed out that the proposals contained citations to some of the questioned text, although
he did not distinguish that text (e.g., with quotation marks, block indentation) as he
should have.70 He also wrote that he paraphrased some of the questioned text, but that he
now believes that he did not paraphrase the text s ~ f f i c i e n t l ~The
                                                                        . ~ ' subject also noted that
the source of some of the text was a separate newspaper article that he believes

63 Tab   5, Source B.
64 Tab 2, project description, page 2.
65 Tab 6, Source C, from website for author
66 Tab 2, project description, page 2.
67



        b page 1; and Tab 14, page 1.
   ~ a 13,
69 Tab 22, page 1.
70 Tab 13, pages 1-3.
71 Tab 13, page 2.
plagiarized the source documents identified by OIG?* This fact may be true, however,
whether the subject copied from the original source or the newspaper article, he still used
that verbatim text without the correct citation or attribution to the source he used.

                                                Intent

        The subject admitted that he was rushed to complete the proposals and
embarrassed that he did not catch the copied materials before the proposals were
~ubrnitted?~Postings by the subject to an online public discussion group for grant
writers also indicated that the subject routinely works on proposals up to the submission
deadline.74 In the discussion thread, the subject wrote that he periodically takes refresher
courses "to eliminate bad habits" and "unnecessary shortcuts.'775These statements
evidenced the subject's awareness that he sometimes "tends" to take shortcuts and needs
periodic refresher training to correct that behavior. Therefore, the subject was aware that
he was sometimes prone to shortcuts. The subject conceded that the time pressure was
not an acceptable excuse.76

        The cut-and-paste nature of the copying with minor editing also evidences intent
on the part of the subject to copy the text into the proposals. The meager efforts at
citation demonstrated the subject knew that the material was not his original material.
This was not a case of ignorance regarding proper citation to source material. Postings
by the subject to an informal online public discussion group for grant writers evidence his
knowledge that copied text should be distinguished from his own original text.77 The
subject also demonstrated greater care in the informal posting, roviding a full formal
citation in one instance78and means of offsetting text in otherse9 than in the two NSF
proposals he authored. Thus, OIG concludes that the subject knew that when copying
text from a source document both a citation and a means of distinguishing the copied text
were necessary.

        OIG found additional evidence of intent particularly with regard to the "Need for
the Project" section of Proposal 2. The subject copied approximately one page of this
section from other sources (passages A, B, and C), the largest single passage (A)
consisting of a paragraph fourteen lines long8' The subject did not precede the passage

72   Tab 13, page 2.
73 Tab   13, page 1; and Tab 22, page 2.
                                           online discussion thread for grant writers. See messages dated




                                                    )giving a full citation to a book edited by(




" Tab 2, project description, page 2.
with any original text nor did he make any effort to paraphrase the text into his own
language. It is not plausible to believe that the subject carelessly and unknowingly cut
and pasted extensive amounts of text into his proposal. Therefore, OIG concludes that the
subject acted knowingly in copying material fiom the source documents into the
proposals and failing to provide appropriate attribution, which includes sufficient citation
to lead the reader to the original material and a means of distinguishing the copied text
fi-om his own original work.

                                     Standard o f Proof

        A preponderance of the evidence shows that the subject copied the materials and
failed to provide proper attribution to the sources he used in preparing the NSF proposals.
Thus, OIG concludes that the subject committed research misconduct.


                            OIG's Recommended Disposition

                                         Seriousness

        The subject's role as the Director of Grants at the institution elevates the
seriousness of his actions. In that position, he serves as the conduit through which NSF
and other Federal institutions receive proposals from the institution. In addition, he
explained that he routinely assists the faculty in writing proposals when faculty members
are too busy to do so for themselves.*' It is clear that he fills roles normally segregated to
different parties in the proposal preparation process at other institutions. Thus, there is a
greater risk that proposals authored by the subject for submission to NSF could contain
plagiarized material.

        However, several addition relevant circumstances surrounding this particular case
also affect OIG's determination of the seriousness of the subject's actions. Those
circumstances include:

    1. The subject's primary academic training is in the humanities, but he has not
       demonstrated proper scholarship or attribution in accord with that training.

    2. In contrast to past NSF plagiarism cases, the subject provided some level of
       citation to many of the passages of copied text, but failed to offset the copied text
       to distinguish his text fiom the copied text.

    3. The formatting of the proposals tends to exaggerate the amount of text copied (4
       pages) because of double spacing and wide margins. Furthermore, approximately
       one page of text is attributable to lists of short statements rather than full lines
       descriptive text.



  Tab 13, page 2.
    4. The subject had a misunderstanding of a complex licensing agreement involving
       intellectual property rights that led him to believe that he and Co-PI 1 had
       permission to use some text without citation.

    5. The subject has submitted other NSF proposals on behalf of others at the
       institution but in those cases the he did not author those proposals. Our analysis
       of those proposals found no evidence of plagiarized material.

    6. Although writing funded NSF proposals would have be an accomplishment to add
       to his grant writing accolades, the subject did not write the proposals for personal
       gain. The subject does not charge fees for writing proposals, successful or
       otherwise. He is also not a faculty member with concerns of tenure and an active
       research program. Furthermore based on the written statements of the Co-PIS and
       our interview with the subject, we conclude that the subject's motivation was only
       to assist colleagues who were otherwise too busy to write their own proposals.

    7. Throughout our investigation the subject fully cooperated with the OIG
       investigators and accepted full responsibility for the copied text, asking that any
       NSF action be directed solely at him and not his institution.

        In light of these aggravating and mitigating circumstances, we conclude that
subject's actions were serious because of his position at the institution, but that other
relevant circumstances support attenuated action by NSF, as compared to similar past
cases. Our recommendations, below, reflect this conclusion.

                                      Degree o fIntent

        The evidence indicated that subject acted knowingly under pressing deadlines.
Based on the unique circumstances of this case as described above, OIG concluded that
the subject's intent was knowing but not motivated by self-interest as found with subjects
in other plagiarism cases adjudicated by NSF.

                                           Pattern

         Although two NSF proposals were involved in this case, OIG found no evidence
of copying in the other NSF proposals submitted through the subject's office at the
institution. OIG notes that the subject also analyzed another NSF proposal he authored
and provided OIG with the source material cited in that proposal. OIG's analysis
concurred with the subject's, concluding that the third proposal did not appear to have
any plagiarized material. OIG concluded that there is insufficient evidence to support an
extensive pattern of plagiarism by the subject.

                               Im-pact on the research record

       OIG identified no impact on the research record in this case. Neither Proposal 1
nor Proposal 2 received h d i n g from NSF.
                                             Recommendation

           Based on its investigation, OIG recommends that NSF:

           send a letter of reprimand to the subject informing him that NSF has made a
           finding of research misconduct;

           require the subject to certify the completion of a course on ethics in scientific
           research before submitting any proposals to NSF on which he is a principal
           investigator (PI), co-principal investigator (Co-PI), or otherwise contributes as an
           author; and

           require the subject to certify that proposals he submits as PI, Co-PI, or otherwise
           contributes as an author, to NSF do not contain plagiarized material for 1 year
           commencing with the date of NSFYsfinding of research misconduct.


                  The Subiect's Responses to the Draft Investigation ~ e p o r t ~ ~

       The subject responded by letter noting his acceptance of our conclusions and
willingness to abide by our recommendations, including training in the ethics of scientific
research. Therefore, we have made no changes to the report.




82   Tab 27, the subject's response to the OIG Draft Investigation Report.
